156 5th Avenue – Suite 904
New York, NY 10010

October 31, 2019
BY HAND DELIVERY

Direct Tel:
Direct Fax:
E-mail:

212-612-3267
212-612-3297
andrea.pacelli@mishcon.com

Scott S. Harris
Clerk of the Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

No. 19-455, ARRIS International Limited v. ChanBond, LLC et al.

Dear Mr. Harris:
The petition in the above-captioned case was filed in this Court on July 25, 2019, and docketed
on October 7, 2019. Because the case clearly does not warrant review by this Court, respondent
ChanBond, LLC waives the right to file a brief in opposition. To that purpose, please find
attached herewith a waiver form.
If the Court wishes to see a brief in opposition, we will of course file one promptly.
Respectfully submitted,

Andrea Pacelli
Counsel for Respondent
cc:
Donald J. English
Duane Morris LLP
505 9th Street, N.W., Suite 1000
Washington, DC 20004
DJEnglish@duanemorris.com
Counsel for Petitioner

Noel J. Francisco
Solicitor General of the United States
Room 5616
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

